                                                                   i
                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: Al1090062                                                                        Page 1 of 1



                We assessed a concern of academic integrity. The complainant 1 was asked to review a
         proposae that involves research to be completed by a postdoctoral researcher. 3 The
         complainant's concerns are that the proposed research is based inappropriately on prior published
         and unpublished work in which the postdoc participated at another institution, and that the
         postdoc may have inappropriately contributed to the writing of the proposal during the time he
         was involved in the prior work. 4

                 The postdoc had ample time after finishingthe previous work to participate in the preparation
         of the new proposaL The proposal contains ample reference to the postdoc's previous work, and
         reference to publications, published and in press, with all co authors listed. The postdoc's previous
         work is also described in the data management plan, and in the biographical sketch included in the
         proposaL There is no support for concerns about academic integrity.

                   Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
